Audit Report




OIG-12-061
Treasury’s Financial Agent Selection Process for the Agency
Mortgage Backed Securities Purchase Program Was Not Fully
Documented
July 31, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report................................................................................... ........... . 1

Results of Audit… ............................................................................................ 3

    Treasury’s Financial Agent Selection Process Was Not Fully Documented… ....... 3

Recommendation ............................................................................................. 7

Appendices

    Appendix     1:     Objective, Scope, and Methodology ........................................              9
    Appendix     2:     Background..........................................................................   10
    Appendix     3:     Chronology of Significant Events……………………………………..                                       16
    Appendix     4:     Management Response .........................................................          18
    Appendix     5:     Major Contributors to This Report ...........................................          20
    Appendix     6:     Report Distribution ................................................................   21

Abbreviations

    CFR                 Code of Federal Regulations
    FAA                 financial agency agreement
    FHFA                Federal Housing Finance Agency
    Fannie Mae          Federal National Mortgage Association
    Freddie Mac         Federal Home Loan Mortgage Corporation
    GSE                 government-sponsored enterprise
    HERA                Housing and Economic Recovery Act of 2008
    HFA                 Housing Finance Agency
    JAMES               Joint Audit Management Enterprise System
    MBS                 mortgage backed securities
    NDA                 non-disclosure agreement
    NIBP                New Issue Bond Program
    TCLP                Temporary Credit and Liquidity Program
    U.S.C.              United States Code




                        Treasury’s Financial Agent Selection Process for the                              Page i
                        Agency MBS Purchase Program Was Not Fully Documented
                        (OIG-12-061)
         This page left intentionally blank




Treasury’s Financial Agent Selection Process for the   Page ii
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                       July 31, 2012

                       Mary John Miller
                       Under Secretary for Domestic Finance

                       Section 1117 of the Housing and Economic Recovery Act of
                       2008 (HERA)1 authorized the Secretary of the Treasury to
                       purchase obligations and securities issued by the Federal
                       National Mortgage Association (Fannie Mae), the Federal Home
                       Loan Mortgage Corporation (Freddie Mac), and the Federal
                       Home Loan Banks. 2 Treasury’s authority to make these
                       purchases ended December 31, 2009. Section 1117 also
                       authorized Treasury to sell or otherwise exercise any rights
                       received in connection with these purchases, at any time.

                       The Agency Mortgage Backed Securities (MBS) Purchase
                       Program is one of several programs that Treasury established
                       under its HERA authorities. 3 Under this program, in its response
                       to the financial crisis, Treasury purchased and sold through
                       financial agents, MBS guaranteed by Fannie Mae and Freddie
                       Mac (these securities are commonly referred to as “agency
                       MBS”). In total, before its purchase authority expired, Treasury
                       acquired $225 billion of agency MBS. In light of improved
                       market conditions, Treasury started to sell its agency MBS in
                       March 2011. On March 19, 2012, Treasury announced the

1
  Pub.L. 110-289
2
  Fannie Mae, Freddie Mac, and the Federal Home Loan Banks are government-sponsored
enterprises (GSE). The GSEs are corporations chartered by Congress. As originally conceived, the
GSEs were chartered to: provide stability in the secondary market for residential mortgages; respond
appropriately to the private capital market; provide ongoing assistance to the secondary mortgage
market by increasing the liquidity of mortgage investments and improving the distribution of
investment capital available; promote access to mortgage credit throughout the nation; and manage
and liquidate federally-owned mortgage portfolios in an orderly manner.
3
  In addition to the Agency MBS Purchase Program, Treasury established the Housing Finance
Agency (HFA) Initiative and entered into Senior Preferred Stock Purchase Agreements with the
GSEs. These programs are detailed in appendix 2.

                       Treasury’s Financial Agent Selection Process for the                      Page 1
                       Agency MBS Purchase Program Was Not Fully Documented
                       (OIG-12-061)
completion of its sale of remaining agency MBS and reported
that overall, cash returns of $250 billion were received from the
agency MBS portfolio through sales, principal, and interest.

This report presents the results of our audit of Treasury’s
selection of financial agents for the Agency MBS Purchase
Program. As part of the audit, we assessed Treasury's process
for (1) determining the services to be carried out by financial
agents and (2) selecting and awarding contracts to financial
agents. To accomplish our objectives, we obtained and
reviewed Treasury’s documentation of the financial agent
selection process and interviewed officials involved with the
selections. We also reviewed laws and regulations on the use of
financial agents. Appendix 1 details our objectives, scope and
methodology; appendix 2 provides the background information
for the audit; and appendix 3 presents a chronology of
significant events pertaining to Treasury’s use of its HERA
authorities as it relates to the Agency MBS Purchase Program.

In brief, we found that Treasury lacked written policies and
procedures for selecting financial agents, and did not fully
document its decision-making process. Even so, we found that
the approach used for selecting financial agents for the Agency
MBS Purchase Program, as described by Treasury officials, was
reasonable. In addition, according to Treasury officials, in the
midst of the rapidly developing economic crisis at the time, a
deliberate management decision was made to apply resources
to other financial stability programs rather than to produce
documentation for the financial agent selection process. While
we understand the pressures facing the very small group of
people involved in the selection process, we believe that a basic
tenet of government accountability is maintaining complete and
appropriate documentation and doing so is in the best long-term
interest of the Department, should, at a later date, it want to
repeat its actions or they be called into question. In this regard,
appropriate documentation can be as simple as
contemporaneous notes that provide a record of why decisions
were made, the way they were made, and how the government
satisfied itself as to whether it obtained the necessary services
at a reasonable cost.

Treasury’s Financial Agent Selection Process for the             Page 2
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
                       Accordingly, we recommend that Treasury develop written
                       policies and procedures for selecting financial agents that will,
                       among other things, require timely documentation of the
                       selection process.

                       In a written response, Treasury management generally agreed
                       with the recommendation and stated that they are moving to
                       develop written policies and procedures. The management
                       response is included as appendix 4 of this report.

Results of Audit
                       Treasury’s Financial Agent Selection Process Was Not Fully
                       Documented

                       Treasury’s use of financial agents does not constitute a
                       procurement contract under the purview of the Federal
                       Acquisition Regulation. In this regard, the Secretary of the
                       Treasury has broad authority in selecting financial agents. 4
                       31 CFR part 202, Depositaries and Financial Agents of the
                       Federal Government, provides that financial agents of the
                       Federal government be insured depositaries that can perform
                       specific services on behalf of the U.S. Treasury. The types of
                       services that a financial agent may perform are described in
                       appendix 2 of this report.

                       In August 2008, Treasury officials began the financial agent
                       selection process with a list provided by Morgan Stanley of the
                       20 largest fixed-income asset-managing companies in the U.S. 5
                       After conducting their own research, in less than a week
                       Treasury officials developed a smaller list of 10 fixed-income

4
  Financial agent designation authority is provided in 12 U.S.C. § 90, Depositaries of public moneys
and financial agents of Government, and 12 U.S.C. § 265, Insured banks as depositaries of public
money; duties; security; discrimination between banks prohibited; repeal of inconsistent laws.
12 U.S.C. § 90 provides that the Secretary of the Treasury may select financial agents in
accordance with any process the Secretary deems appropriate.
5
  Morgan Stanley was hired by Treasury to advise senior Treasury officials on the condition of the
GSEs and the housing finance markets. It provided Treasury a list of the largest fixed-income asset
managing companies to aid in the financial agent selection process.

                       Treasury’s Financial Agent Selection Process for the                       Page 3
                       Agency MBS Purchase Program Was Not Fully Documented
                       (OIG-12-061)
                       managers with particular expertise in MBS portfolios, and
                       requested that all 10 companies sign a non-disclosure
                       agreement (NDA). Once the NDAs were signed and returned,
                       the 10 asset-managing companies received a program
                       description with a request for a written proposal. Treasury
                       received detailed proposals from 7 of the 10 companies it
                       contacted. Treasury officials reviewed the proposals and then
                       held telephone and face-to-face interviews with representatives
                       from 5 of the companies of the 7 companies that submitted
                       proposals (the other 2 companies had been eliminated by
                       Treasury because they did not meet eligibility criteria). After the
                       interviews, Treasury officials eliminated another company after
                       that company’s representation and warranty responses
                       demonstrated that it did not meet the program criteria for
                       deposit insurance. Treasury selected 2 of the remaining 4
                       companies—State Street Bank and Trust Company (State
                       Street) and the New York Branch of Barclays Bank P.L.C.
                       (Barclays)—as the financial agents for asset management
                       services for the MBS Purchase program. 6

                       Treasury officials explained that it was prudent to have more
                       than one asset manager so that (1) no single financial agent
                       would be aware of Treasury’s full market involvement and
                       (2) Treasury could obtain more market information. Treasury
                       offered a fee structure to the 2 companies that were selected
                       that was lower than what any of the 7 companies had
                       proposed. Both State Street and Barclays agreed to accept the
                       lower fee rate structure and signed FAAs with Treasury on
                       September 15 and September 18, 2008, respectively.

                       Treasury also hired JPMorgan Chase Bank N.A. (JPMorgan
                       Chase) as the custodian. JPMorgan Chase was selected on a
                       sole source basis because of its prior custodial experience and
                       familiarity with Treasury operations. JPMorgan Chase signed a
                       FAA for custodial and accounting services on September 18,
                       2008. As of the quarter ended December 31, 2011, the three
                       financial agents have been paid approximately $69.6 million, for
6
  Section 13 of the financial agency agreements (FAAs) for asset management services allowed
both State Street and Barclays to use its affiliates, State Street Global Advisors and Barclays Global
Investors, to perform services under the FAA.

                       Treasury’s Financial Agent Selection Process for the                         Page 4
                       Agency MBS Purchase Program Was Not Fully Documented
                       (OIG-12-061)
                       services under the Agency MBS Purchase Program and for
                       Treasury’s HFA Initiative. 7

                       Treasury evaluated policy options for supporting the MBS
                       market, decided to implement a purchase program, created a
                       competitive bidding process, selected financial agents, and
                       stood up the Agency MBS Purchase Program in a very short
                       period of time—less than a month. The policy deliberations and
                       selection process began in late August 2008; the program was
                       announced by the Treasury Secretary on September 7, 2008,
                       concurrent with the public announcement by FHFA that Fannie
                       Mae and Freddie Mac had been placed into conservatorship,
                       and; by September 18, 2008, the selection of financial agents
                       was complete. Treasury did this without having policies and
                       procedures in place to document its selection decisions. While
                       the efforts to accomplish the tasks in such a short period of
                       time are noteworthy, we found that Treasury officials did not
                       document their decision making process. Specifically, Treasury
                       officials did not document how they evaluated the asset-
                       managing companies initially identified by Morgan Stanley or the
                       written proposals that were eventually reviewed. The officials
                       did not document the method they used to move from the initial
                       list of 20 asset-managing companies down to the 10 that were
                       asked to sign a NDA, and ultimately down to the 2 that were
                       selected. Even when Treasury received written proposals and
                       other presentation materials from the bidders, the Treasury
                       officials involved in the selection process did not annotate why
                       they preferred one bidder over another. When asked how they
                       made the final selections, the Treasury officials told us that
                       both State Street and Barclays made presentations that best
                       addressed the program’s objectives. However, they did not
                       describe in writing how the companies better addressed the
                       program’s objectives over the others.

7
  The amounts paid to the individual financial agents, as of December 31, 2011, are as follows:
(a) State Street - $46.7 million, (b) Barclays - $9.8 million, and (c) JPMorgan Chase - $13.1 million.
Treasury’s FAA with Barclays was terminated in December 2009 at the expiration of Treasury’s
authority to purchase Agency MBS. At that time, the remainder of the Barclays portfolio was
transferred to State Street. The FAAs with State Street and JPMorgan Chase were amended in
2009 to include services for Treasury’s HFA Initiative (see appendix 2 for further information on the
HFA Initiative). Barclays did not provide any services for Treasury’s HFA Initiative.

                       Treasury’s Financial Agent Selection Process for the                         Page 5
                       Agency MBS Purchase Program Was Not Fully Documented
                       (OIG-12-061)
                      Treasury officials we interviewed told us that the selection
                      process had to be completed in a very short period of time.
                      During that time, they had to contact the potential bidders,
                      request and evaluate their proposals, make selections, and
                      develop the FAAs. We were told that only two people handled
                      the majority of the work, and based on management decisions
                      to use staff on other financial stability programs during the fast-
                      moving events at the time, they (consciously) did not take the
                      time to document their reasons for selection decisions. Treasury
                      officials also stated that due to the sensitivity of the program
                      operation, in that premature disclosure could have had global
                      market consequences, they were instructed by the then
                      Secretary of the Treasury to limit the number of staff involved
                      in the financial agent selection process.

                      Internal control standards in the federal government provide that
                      internal control and all transactions and other significant events
                      need to be clearly documented, and the documentation should
                      be readily available for examination. The requirement for
                      documentation should appear in management directives,
                      administrative policies, or operating manuals and may be in
                      paper or electronic form. All documentation and records should
                      be properly managed and maintained. 8

                      Treasury’s documentation requirements are prescribed in
                      Treasury Directive Publication 80-05, Records and Information
                      Management Program, which states that all program officials
                      shall create and maintain adequate and proper documentation of
                      the program for which they are responsible. This means a
                      record of the conduct of government business that is complete
                      and accurate to the extent required to document the
                      organization, functions, policies, decisions, procedures, and
                      essential transactions of their office and to protect the legal and
                      financial interest of the government and of persons directly
                      affected by the activities of their office.



8
 U.S. Government Accountability Office, Standards for Internal Control in the Federal Government,
November 1999.

                      Treasury’s Financial Agent Selection Process for the                      Page 6
                      Agency MBS Purchase Program Was Not Fully Documented
                      (OIG-12-061)
Treasury officials told us that they considered these internal
control criteria as more applicable for normal program
operations and that the problems they faced in September
2008, during the time of this program’s inception, were
extraordinary. Treasury officials added that taking time to
satisfy procedures that normally apply to administrative
management would be counter-productive in meeting the
Department’s far more important responsibilities at the height of
the crisis. While we understand the difficult and exigent
decisions made during the extraordinary situation, we do not
believe documentation would have taken that much time or
resources, especially if the notion of documentation were a
common program management practice.

In conclusion, Treasury officials described a selection process
for the financial agents that provided a competitive selection
process at a lower cost than the potential asset managers
proposed and were thus successfully able to launch the Agency
MBS Purchase Program in a very short period of time. However,
Treasury did not fully document the selection process due to
management decisions on what it believed to be the best use of
personnel at the time. As a result we could not fully
substantiate the appropriateness of the selections. As
mentioned above, acceptable documentation can be as simple
as contemporaneous notes that provide a record of why
decisions were made, the way they were made, and how the
government satisfied itself as to whether it obtained the
necessary services at a reasonable cost.

Recommendation

We recommend that the Under Secretary for Domestic Finance
ensure that written policies and procedures are developed for
selecting financial agents. These policies and procedures should,
among other things, require documentation supporting all key
events and decisions.




Treasury’s Financial Agent Selection Process for the           Page 7
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
                        Management Response

                        Treasury management generally agreed with the
                        recommendation and stated that they are moving to develop
                        written policies and procedures. Management noted that the
                        policies and procedures will provide flexibility for times of
                        exigent circumstances, such as periods of economic and
                        financial distress.

                        OIG Comment

                        Management’s response meets the intent of our
                        recommendation. However, the response did not specify the
                        target date for completing the planned action. The Office of
                        Domestic Finance will need to establish a target date in the
                        Joint Audit Management Enterprise System (JAMES). 9 While we
                        acknowledge management’s position regarding exigent
                        circumstances, we do want to emphasize the importance of
                        documenting key events and decisions as they occur, even in
                        such circumstances.

                                                  * * * * *

                        We appreciate the courtesies and cooperation provided to our
                        staff during the audit. If you wish to discuss the report, you
                        may contact me at (202) 927-6516 or Michael Maloney, Audit
                        Director, at (202) 927-6512. Major contributors to this report
                        are listed in appendix 5.

                        /s/
                        Marla A. Freedman
                        Assistant Inspector General for Audit




9
    JAMES is the Department of the Treasury’s audit recommendation tracking system.

                        Treasury’s Financial Agent Selection Process for the            Page 8
                        Agency MBS Purchase Program Was Not Fully Documented
                        (OIG-12-061)
Appendix 1
Objective, Scope, and Methodology




The objective of this audit was to evaluate Treasury's decision
to use the financial agents’ services to purchase agency
mortgage backed securities. Specifically, we assessed the
process for (1) determining the services to be carried out by
financial agents, and (2) selecting and awarding contracts to
financial agents.

To accomplish the objective, we

   •   reviewed pertinent laws, regulations and federal
       guidelines, including those related to Treasury’s
       authorities to use financial agents;

   •   obtained and reviewed documents provided by Treasury
       Office of Domestic Finance officials related to the
       financial agent selection process, including written
       proposals, non-disclosure agreements, financial agent
       agreements, presentation materials, and various
       correspondence between Treasury and the bidders;

   •   interviewed Treasury Office of Domestic Finance officials
       involved in the financial agent selection process and
       senior management and staff of the financial agents.

We conducted our fieldwork from May 2011 through January
2012 at the Department of the Treasury in Washington, D.C.

We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit
objective.




Treasury’s Financial Agent Selection Process for the              Page 9
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
                       Appendix 2
                       Background




                       Treasury Housing and Economic Recovery Act Programs

                       In the midst of a rapidly deteriorating mortgage market that
                       threatened the soundness of Federal National Mortgage Association
                       (Fannie Mae) and the Federal Home Loan Mortgage Corporation
                       (Freddie Mac), Congress passed the Housing and Economic
                       Recovery Act (HERA) in July 2008. HERA was a first step to
                       address immediate and long-term concerns in the housing market.
                       Among many things, HERA created the Federal Housing Finance
                       Agency (FHFA), with enhanced regulatory authority over the
                       government-sponsored enterprises (GSEs), and provided the
                       Secretary of the Treasury with certain purchase authority for GSE
                       obligations to provide stability to the financial markets, prevent
                       disruptions in the availability of mortgage finance, and protect the
                       taxpayer. After determining that Fannie Mae and Freddie Mac could
                       not continue to operate safely and soundly and fulfill their critical
                       public mission, the FHFA Director placed the two GSEs into
                       conservatorship on September 7, 2008. 10

                       Pursuant to the authorities provided to the Secretary of the
                       Treasury under HERA, Treasury established programs and
                       initiatives for the purposes of stabilizing the housing market and
                       ensuring the continued availability of mortgage credit.

                       Senior Preferred Stock Purchase Agreements

                       Treasury entered into Senior Preferred Stock Purchase Agreements
                       with Fannie Mae and Freddie Mac to provide capital support to the
                       GSEs, as necessary, thereby minimizing potential systemic financial
                       risks associated with their deteriorating financial condition. These
                       agreements require that Treasury provide funding to the GSEs if at
                       the end of any calendar quarter their total liabilities exceed total
                       assets (deficiency amounts). The requests for funds must be made
                       in writing by the FHFA in its role as the conservator. The maximum
                       amount available to each GSE under the agreements are currently
                       based on a formulaic cap which adjusts upwards for quarterly
10
   A conservatorship is a legal process in which a person or entity is appointed to establish control and
oversight of a company to put it in a sound and solvent condition. In a conservatorship, the powers of
the company’s directors, officers, and shareholders are transferred to the designated conservator. In the
instances of Fannie Mae and Freddie Mac, FHFA was appointed by its Director to be the conservator.

                       Treasury’s Financial Agent Selection Process for the                      Page 10
                       Agency MBS Purchase Program Was Not Fully Documented
                       (OIG-12-061)
Appendix 2
Background




deficiencies through December 31, 2012, and will be decreased by
any surplus realized in the last quarter. At that time, the cap will
set at no less than $200 billion for each GSE. The GSEs may
continue to draw funds until the maximum available amount set at
December 31, 2012, is depleted. As of March 31, 2012, Treasury
has funded the GSEs a total of $187 billion covering deficiency
amounts through December 31, 2011.

Agency Mortgage Backed Securities (MBS) Purchase Program

The Agency MBS Purchase Program allowed Treasury, through two
financial agents, to purchase agency MBS in the open market. The
financial agents were also authorized to enter into other trade/sell
transactions. By purchasing these credit-guaranteed securities,
Treasury sought to broaden access to mortgage funding for current
and prospective homeowners and to promote stability in the
mortgage market. The size and timing of the MBS purchases were
subject to the discretion of Treasury up to the sunset of the
Treasury’s purchase authority. From the inception of the program
in September 2008 through the expiration of the purchase
authority in December 2009, Treasury purchased MBS worth
approximately $225 billion. Disposal of the MBS portfolio began in
March 2011, and Treasury announced on March 19, 2012, that it
had completed the disposition of its agency MBS portfolio.
Treasury reported that overall, cash returns of $250 billion were
received from the agency MBS portfolio through sales, principal,
and interest, which was $25 billion more than the initial
investment.

Housing Finance Agency (HFA) Initiative

On February 18, 2009, the President announced the Homeowner
Affordability and Stability Plan. One component of this plan was to
work with Fannie Mae and Freddie Mac to support state HFAs,
which, due to market conditions, were experiencing a number of
challenges in providing homebuyers with affordable mortgage
options. The HFAs’ challenges included lack of liquidity, credit and
cash flow concerns, and a lack of investors to purchase new
mortgage revenue bonds. The HFA Initiative is comprised of two
programs, the Temporary Credit and Liquidity Program (TCLP) and

Treasury’s Financial Agent Selection Process for the          Page 11
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
                       Appendix 2
                       Background




                       the New Issue Bond Program (NIBP), which are supported by
                       Treasury’s purchase of obligations and securities issued by Fannie
                       Mae and Freddie Mac. Together, these programs are intended to
                       bring market stability and support the HFAs in providing single and
                       multifamily mortgages. Through the NIBP, Treasury purchased
                       $15.3 billion of securities issued by the GSEs that are backed by
                       new mortgage revenue bonds issued by participating state and
                       local HFAs. The purpose of NIBP is to allow state and local HFAs
                       to continue issuing bonds creating new mortgage funding. Through
                       the TCLP, Treasury committed $8.2 billion for a participation
                       interest in the credit facilities established by the GSEs to support
                       the existing variable rate demand obligations market. As of
                       December 31, 2011, there had been no draw requests or
                       disbursements from the TCLP.

                       One of the goals of the HFA Initiative is to transition HFAs back to
                       the private market for capital. The fees for HFAs to use the TCLP
                       increase over time to encourage the HFAs to make the transition as
                       quickly as possible. Treasury’s authority to enter additional
                       purchase commitments under the NIBP and TCLP expired on
                       December 31, 2009, and the programs were set to expire on
                       December 31, 2010, and December 31, 2012, respectively.
                       However, given the slower than expected recovery of the housing
                       market and current market conditions, the NIBP program was
                       extended twice and is set to expire on December 31, 2012. The
                       TCLP was extended through December 31, 2015.

                       Financial Agent Selection

                       The National Bank Acts of 1863 and 1864 granted Treasury the
                       authority to retain financial agents to provide services on its
                       behalf. 11 Financial agents have the fiduciary obligation to protect
                       the interests of the U.S. In addition to the financial agents used
                       under the HERA initiatives, Treasury has 13 active Financial
                       Agency Agreements (FAAs) worth approximately $722.5 million in
                       total compensation related to its Emergency Economic Stabilization



11
  As discussed in footnote 4, financial agent designation authority is provided in 12 U.S.C. § 90 and
12 U.S.C. § 265.

                       Treasury’s Financial Agent Selection Process for the                     Page 12
                       Agency MBS Purchase Program Was Not Fully Documented
                       (OIG-12-061)
Appendix 2
Background




Act of 2008 authorities and is seeking financial agents for asset
management services for its Small Business Lending Fund.

Treasury’s use of financial agents does not constitute a
procurement contract under the purview of the Federal Acquisition
Regulation. 31 CFR part 202 provides financial agent eligibility
criteria. The criteria require that financial institutions are insured by
the Federal Deposit Insurance Corporation and that credit unions
are insured by the National Credit Union Administration. The
criteria also outlines specific services that a financial agent must be
able to perform, including accepting deposits covered by the
appropriate Federal or state insurer, maintaining official accounts
with balances above applicable insurance coverage, maintaining
accounts in the name of the U.S. Treasury, and accepting deposits
for credit to the U.S. Treasury. A financial agent must also be able
to pledge collateral security as required by Treasury.

Treasury officials selected two financial agents for asset
management services and one financial agent for custodian and
accounting services for its Agency MBS Purchase Program. The
agreements with the two of the three financial agents were also
amended to include the services for the HFA Initiative. The
following is a breakdown of the selected financial agents and
services to be provided.

State Street Bank and Trust Company (State Street),
State Street Global Advisors (corporate affiliate)

State Street entered into an agreement with Treasury on
September 15, 2008, to provide asset management services, to
include acquisition, management, servicing, and accounting, for a
portfolio of agency MBS. The agreement provided for an annual
compensation rate of 3 basis points on the first $5 billion of assets
under management, 2 basis points on the next $5 billion, and
1 basis point on assets under management above $10 billion. State
Street was also paid 0.5 basis points for management of the
agency MBS portfolio transferred from Barclays at the termination
of Barclay’s agreement with Treasury effective December 31,
2009. State Street remained the sole manager of the agency MBS
portfolio through the completion of the portfolio’s disposition in

Treasury’s Financial Agent Selection Process for the              Page 13
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
Appendix 2
Background




March 2012. State Street also provided asset management
services for Fannie Mae and Freddie Mac securities under the HFA
Initiative, and was compensated under a similar 3-2-1 basis point
fee structure for the first $10 billion under management, the next
$10 billion, and above $20 billion under management. As of
December 31, 2011, State Street had received total compensation
of $46.7 million for its asset management services for the Agency
MBS Purchase Program and HFA Initiative.

New York Branch of Barclays Bank PLC (Barclays),
Barclays Global Investors NA (corporate affiliate)

Barclays entered into an agreement with Treasury on
September 18, 2008, to provide asset management services, to
include acquisition, management, servicing, and accounting, for a
portfolio of agency MBS. The agreement provided for an annual
compensation rate of 3 basis points on the first $5 billion of assets
under management, 2 basis points on the next $5 billion, and
1 basis point on assets under management above $10 billion.
Barclays served as a financial agent during the agency MBS
purchase period but was not used for services under the HFA
Initiative. Treasury terminated its agreement with Barclays on
December 31, 2009, and Barclays’ agency MBS portfolio was
transferred to State Street. Barclays received total compensation of
$9.8 million for its asset management services.

JPMorgan Chase Bank NA (JPMorgan Chase),
JPMorgan Investor Services Co. (corporate affiliate)

JPMorgan Chase entered into an agreement with Treasury on
September 18, 2008, to provide custodian and accounting
services, including confirming all settled transactions and
maintaining records of all trades executed, for the Agency MBS
Purchase Program. The agreement provided for a compensation
structure of 0.25 basis points for custody of assets, a $2 per
transaction fee, and a $30,000 quarterly accounting fee. JPMorgan
Chase also provided custodian and accounting services for the HFA
Initiative and was paid under the same compensation structure. As
of December 31, 2011, JPMorgan Chase had received total


Treasury’s Financial Agent Selection Process for the          Page 14
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
Appendix 2
Background




compensation of $13.1 million for its custodian and accounting
services for the Agency MBS Purchase Program and HFA Initiative.




Treasury’s Financial Agent Selection Process for the      Page 15
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
                   Appendix 3
                   Chronology of Significant Events




The following chronology describes the significant events that followed the enactment
of the Housing and Economic Recovery Act of 2008 (HERA), which includes
Treasury’s process for selecting financial agents as asset managers for its HERA
programs.

7/30/2008          HERA is enacted as Public Law 110-289.

8/26/2008          Morgan Stanley provided Treasury a list of the 20 largest fixed-
                   income asset managers.

8/29/2008-         Treasury narrowed the list of potential asset managers to 10. All
9/3/2008           10 asset managers signed a non-disclosure agreement and
                   subsequently received a program description with a request for
                   proposal.

9/4/2008           Treasury received written proposals from 7 of the 10 potential
                   asset managers.

9/7/2008           The government-sponsored enterprises (GSEs)–Federal National
                   Mortgage Association (Fannie Mae) and Federal Home Loan
                   Mortgage Corporation (Freddie Mac) were placed under Federal
                   Housing Finance Agency’s conservatorship.

9/7/2008           Treasury announced the start of the Agency Mortgage Backed
                   Securities (MBS) Purchase Program.

9/8/2008-          Treasury narrowed the list of potential asset managers to 5 and
9/17/2008          conducted phone and face-to-face interviews with them.

9/15/2008          Treasury and State Street Bank and Trust Company (State Street)
                   entered into a Financial Agency Agreement (FAA) for asset
                   management services.

9/18/2008          Treasury and the New York Branch of Barclays Bank PLC (Barclays
                   Bank) entered into a FAA for asset management services.

9/18/2008          Treasury and JPMorgan Chase Bank NA entered into a FAA for
                   custodian and accounting services.


                   Treasury’s Financial Agent Selection Process for the          Page 16
                   Agency MBS Purchase Program Was Not Fully Documented
                   (OIG-12-061)
             Appendix 3
             Chronology of Significant Events




9/23/2008    Treasury’s financial agents began purchasing agency MBS.

10/23/2009   Treasury amended its FAA with State Street to include services in
             support of the Housing Finance Agency (HFA) Initiative.

11/10/2009   Treasury notified Barclays Bank that its FAA will be terminated
             effective December 31, 2009.

12/8/2009    Treasury amended its FAA with JPMorgan Chase Bank NA to
             include services in support of the HFA Initiative.

12/31/2009   Treasury’s authority to purchase agency MBS expired.

11/1/2010    Treasury amended its FAA with State Street to extend the
             expiration date from December 31, 2010, to December 31, 2011.

11/24/2010   Treasury amended its FAA with JPMorgan Chase Bank NA to
             extend the expiration date from December 31, 2010, to
             December 31, 2011.

3/21/2011    Treasury announced the disposition of its MBS portfolio and began
             winding down the portfolio.

6/30/2011    Treasury amended its FAA with State Street to extend the
             expiration date from December 31, 2011, to June 30, 2012.

12/9/2011    Treasury amended its FAA with JPMorgan Chase Bank NA to
             extend the expiration date from December 31, 2011, to
             December 31, 2012.

3/19/2012    Treasury announced the completion of the sale of its agency MBS
             portfolio and reported a positive return of $25 billion for taxpayers.




             Treasury’s Financial Agent Selection Process for the            Page 17
             Agency MBS Purchase Program Was Not Fully Documented
             (OIG-12-061)
Appendix 4
Management Response




Treasury’s Financial Agent Selection Process for the   Page 18
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
Appendix 4
Management Response




Treasury’s Financial Agent Selection Process for the   Page 19
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
Appendix 5
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Myung G. Han, Audit Manager
John B. Gauthier, Auditor in Charge
Jennifer R. Adamson, Auditor
Christen J. Stevenson, Referencer




Treasury’s Financial Agent Selection Process for the   Page 20
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
Appendix 6
Report Distribution




Department of the Treasury

   Deputy Secretary
   Under Secretary for Domestic Finance
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
     Group
   Office of the Assistant Secretary for Financial Markets
   Office of the Deputy Assistant Secretary for Government
     Financial Policy
   Office of the Deputy Assistant Secretary for Fiscal Operations
     and Policy

Office of Management and Budget

   OIG Budget Examiner




Treasury’s Financial Agent Selection Process for the         Page 21
Agency MBS Purchase Program Was Not Fully Documented
(OIG-12-061)
